WAIVER

SUPREME COURT OF THE UNITED STATES

No. (20-1566

David Cassirer, et al. Thyssen-Bornemisza Collection Found.
(Petitioner) Vv. (Respondent)

1 De NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:

© Jam filing this waiver on behalf of all respondents.

oO

 

represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Lam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

onse be requested, the response
inal signed form to: Supreme Court,

  
 

I am not presently a member of the Bar of this Court. Should a
will be filed by a Bar member. (Filing Instructions: Mail the ori
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 205

 

Signature: Syne. a

Date: 5/14/21,

(Type or print) Name Sarah Erickson André
O wr. © Ms. O Mrs.

 

Firm ‘Nixon Peabody LLP ; ;

Address 300 South Grand Avenue, Suite 4100 eos
City & State Los Angeles, CA : Zip 90071-3151
Phone 213-629-6076 Email sandre@nixonpeabody.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form, No additional certificate of service or cover letter is required.

David Boies of Boies, Schiller & Flexner LLP

ce:

 
